                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT NIEMORANDUM

     Case Number: A06030009
                                                                                    11          Page 1 of 1



                   We reviewed a proposal' for which we had an allegation that it contained text plagiarized
           from a review article. We identified text from a second potential source document and contacted the
            PI^ and CO- PI^ individually for their comments. They responded in a joint letter, which indicated
           that the Co-PI had written the section of the proposal containing the questioned text. The Co-PI is
           recent Ph.D. in her first postdoctoral position, and this was her first time writing for an NSF
           proposal. Citations to the source documents were meager, and they did not distinguish the copied
           text from their own original text. The PI and Co-PI appeared to have a well-established collaborative
           relationship with the author of one of the sources, who also assisted the PI and Co-PI in the
           preparation of the proposal. Given these circumstances and the small amount of text involved, we
           have written them suggesting that they be more careful in future proposals. No further action is
           warranted.

                     Accordingly, this case is closed.




II                                                                                                                 111
 NSF OIG Form 2 (1 1/02)
